Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

         State Use of Genetic Testing




                       JUNE GIBBS BROWN
                        Inspector General

                         SEPTEMBER 1999
                          OEI-06-98-00054
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins, Lead Analyst
                   Alan Levine, Program Specialist
Ruth Ann Dorrill, Project Leader
               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

This inspection describes State policies and practices regarding the use of genetic testing to
establish paternity and highlights innovative strategies for overcoming barriers to testing.

BACKGROUND

Widespread use of genetic testing has contributed to increases in the number of paternities
established in recent years. However, barriers may exist that inhibit the effective use of testing.
Federal legislation requires States to empower their child support agencies with authority to order
parties to submit to genetic testing. States agencies must make genetic testing available upon
request of any party in a paternity case, pay for testing in some cases, and affirm that test results
create a presumption of paternity. The Federal government matches State funds to cover testing
expenses, and States may recoup these costs from the father once paternity is established. To
obtain information on how States use genetic testing, barriers to its use, and strategies to
surmount barriers, we surveyed child support agency directors in all States. Additionally, in six
focus States, we surveyed local child support office managers and interviewed local managers and
staff during site visits to twenty-four offices.

FINDINGS

States Use Genetic Testing in a Large Number of Paternity Cases.

State child support agencies widely agree that genetic testing should be used when any
uncertainty about paternity exists, and report using genetic testing in a significant number of
paternity cases. All but one State typically tests all three parties - child, mother and putative
father - maximizing the precision of test results. Forty-three State child support agencies have the
authority to administratively order parties to submit to genetic testing, while eight State agencies
have no such authority, or must gain approval from the courts before requiring parties to test.
Testing is occasionally used in cases in which paternity has already been established through
voluntary acknowledgment or by default.

Many Mothers and Putative Fathers Have Incentives Not to Test and Other Barriers, Such as
Inconvenient Testing Locations, May Inhibit the Use of Genetic Testing.

The greatest barrier to the effective use of genetic testing is a desire on the part of mothers and
putative fathers not to establish paternity. Putative fathers may simply wish to avoid paying child
support, and mothers may prefer informal support. Other barriers that inhibit use of testing
include: client fear of needles, lack of transportation, inconvenient testing locations, fees charged
for testing, difficulty scheduling appointments for submission of DNA samples, and intentional
delays by parties attempting to prolong or avoid paternity establishment.



                                          )))))))))))
                                               i
Some Promising Strategies to Surmount Barriers Are Used Only In Limited Areas.

Some child support staff immediately collect DNA samples from parties at their local office,
thereby avoiding future delays and transportation problems. Many areas use buccal swab (cheek
cells) sampling, instead of drawing blood, alleviating client fear of needles as a barrier to testing.
To eliminate expense as a concern for putative fathers’ use of genetic testing, some States do not
seek to recoup testing costs, or allow local staff discretion to waive recoupment. However, few
areas in the country appear to use all of these strategies.

RECOMMENDATIONS

Encourage All States to Give Agencies Administrative Authority to Order Genetic Testing.

Child support agencies in eight States do not have the full authority to administratively order
genetic testing as required by welfare reform. Having authority to order testing is a necessary
first step for child support workers to administratively establish paternity.

Encourage States to Use Innovative Strategies, Such as Buccal Swab Sampling at Local Child
Support Offices.

Sample collection at local child support offices and use of buccal swab sampling help child
support workers surmount barriers to the use of genetic testing. Staff report that collecting
genetic samples from parties at the child support office helps avoid delays and transportation
problems. Buccal swab sampling appears to be safer, easier and faster than drawing blood, and
often meets less resistance from parties who may be afraid of needles.

Encourage States to Exercise Care in Allowing Genetic Testing in Cases in Which Paternity
Has Already Been Established.

Routine use of genetic testing in cases in which paternity has already been legally established
through voluntary acknowledgment or by default may have serious long-term consequences.
Such practice could weaken the legal standing of acknowledged or defaulted paternities. State
child support agencies should be encouraged to work with their legislatures, vital records agencies
and court systems to develop consistent procedures regarding use of genetic testing when
paternity has already been established.

AGENCY COMMENTS

The Administration for Children and Families (ACF) agreed with our recommendations that all
States should grant their child support agency authority to order genetic testing, and should be
encouraged to use innovative testing strategies. Regarding our recommendation that they
encourage States to exercise care in genetic testing when paternity has already been established,
ACF prefers to leave this to State discretion but agreed to advise States that our findings suggest
the need to review their own policies and practices. We have withdrawn a recommendation that
OCSE encourage States to review their recoupment policies.


                                           )))))))))))
                                                ii
                              TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          State Use of Genetic Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Barriers to the Use of Genetic Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                     Incentives of Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                     Costs of Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                     Time, Location and Method of Sample Collection . . . . . . . . . . . . . . . . . . . . . . . 8


                     Delays Associated With Genetic Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Strategies for Surmounting Barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                     Buccal Swab Sampling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                     Sample Collection at Local Offices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


          Examples of Language in Documents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          ACF Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                             INTRODUCTION

PURPOSE

This inspection describes State policies and practices regarding the use of genetic testing to
establish paternity, and highlights innovative strategies for overcoming barriers to testing.

BACKGROUND

Congress and States have taken advantage of modern scientific advances by encouraging the use
of genetic testing in paternity establishment efforts. The Family Support Act of 1988 mandated
that States require all parties in paternity cases to submit to genetic testing upon request of any
party. The Act also set the Federal matching rate for genetic testing at 90 percent.1 Subsequent
legislation required that genetic testing create a presumption of paternity, when test results meet
thresholds established by the States. The Personal Responsibility and Work Opportunity Act of
1996 required that States adopt expedited procedures that give child support enforcement
agencies authority to order genetic testing “... without the necessity of obtaining an order from
any other judicial or administrative tribunal...”2 Federal law also gives State agencies permission
to recoup the cost of testing “... from the alleged father if paternity is established...”3

Legislation designed to encourage genetic testing has had a profound effect on the paternity
establishment process across the nation. Child support staff now have a highly reliable method of
determining whether a man is the father of a child. While genetic testing cannot prove paternity,
it can exclude with certainty a man wrongly named as the father. Further, test results can
demonstrate the probability that a child is the offspring of a man with the exact genetic
characteristics of the man tested, up to a probability of 99.9 percent. As a result of these
advances, every State will now legally establish paternity when a man is not excluded by testing.

When a child is born to an unmarried woman, paternity may be established through various
methods. Many unmarried parents sign voluntary acknowledgments of paternity immediately
following birth in hospitals, or sometime subsequent to the child’s eighteenth birthday. Genetic
testing is typically not required in conjunction with voluntary acknowledgments. A second
method of establishing paternity involves the parties voluntarily consenting to genetic testing and
agreeing to abide by the results. These are common in administrative paternity establishments. A
third method involves contested cases in which the parties are either administratively or judicially
ordered to submit to genetic testing.

Several topics regarding the use of genetic testing in paternity establishment warrant
consideration, including the legal authority to order genetic testing, the mechanics of testing, and
its effect on children, mothers, putative fathers and child support staff. Barriers may exist that
make testing more difficult for parties, which is important, considering the possible consequences
of failure to test when ordered. Potential barriers may include inaccessibility of test sites, fear of
needles and drawing blood, the cost of testing, and any incentives the parties might have to avoid
testing or delay paternity establishment.


                                           )))))))))))
                                                1
SCOPE AND METHODOLOGY

To examine the role of genetic testing in the paternity establishment process, we gathered
information from three groups of child support specialists: State child support agency directors,
local office managers, and local office front-line staff. We reviewed the laws and regulations
governing the use of genetic testing. We also analyzed the processes, forms and documentation
employed by State and local child support enforcement offices regarding genetic testing.

Administrators from every State and the District of Columbia child support agency completed a
written survey on paternity establishment methods and policies. Ninety-nine local office managers
in six focus States - California, Georgia, Illinois, New Jersey, Texas and Virginia - completed a
survey about their office’s paternity establishment policies and practices. Finally, we made site
visits to four local offices in each of the six focus States. During these visits, we conducted 47
interviews which included over 99 local office child support staff who work directly with clients.

We purposively selected the six focus States to include a variety of implementation strategies and
experiences regarding paternity establishment. To achieve this variety, we considered many
criteria including, non-marital birth rates by State and locality, State Paternity Establishment
Percentages (PEP), performance of voluntary acknowledgment programs, outstanding program
characteristics (innovation, privatization, etc.), status as State-administered or county-
administered, and geographic region. We also purposively selected local child support offices
within these States to provide a mix of urban, suburban, mid-size and rural locations.4 Since the
number of local offices varies significantly by State, we surveyed all local offices in some States
and a portion in others.5 For on-site interviews, we visited offices in one or two cities and their
surrounding areas in each focus State. The selection of focus States does not purport to be
representative of the nation, nor do local offices represent all offices within individual focus
States. The selections do, however, allow for examination of paternity establishment processes
under conditions found throughout the country.

The pretested survey instruments and interview protocols included sections specifically about
policies and office procedures related to genetic testing as well as barriers to the use of testing.
Additionally, we gathered supplementary documentation including copies of State paternity policy
manuals, staff training materials on paternity practices, public outreach materials related to
paternity establishment, and samples of documents and correspondence regarding paternity
establishment.

This study of the use of genetic testing was conducted as part of a larger project on State
paternity establishment methods. Companion reports discuss State use of voluntary paternity
acknowledgments, the role of vital records agencies in paternity establishment efforts, and an
overall description of State paternity establishment methods.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                         )))))))))))
                                              2
                                      FINDINGS

STATE USE OF GENETIC TESTING

Almost All States Use Genetic Testing in a Large Number of Paternity Cases and Typically
Test the Mother, As Well as the Child and Putative Father.

State and local child support agencies rely heavily on genetic testing to determine paternity.
Thirty-one States report using testing in “about half” or “some” paternity cases, with another 16
States reporting usage in more than half of all paternity cases. Two States claim to use genetic
testing in only few cases. Local child support offices in focus States report similar usage patterns,
with 81 percent using genetic testing in “about half” or “some” paternity cases, and another 17
percent using it in more than half of all paternity cases. Only one out of 96 local managers
reported testing in just a few cases.

Policy in all but one State is to test all three parties in a paternity case: child, mother and putative
father. While paternity may be established without testing the mother, States choose to test her
for two reasons. First, genetic test results using all three parties provide a higher probability of
paternity than motherless tests.6 Additionally, testing the mother eliminates a potential welfare
fraud scheme. Local staff report that women occasionally apply for public assistance, fraudulently
claiming a child is hers in order to increase her level of benefits. In this case, genetic testing
would exclude her as the mother. However, States may be forced to test without the mother if
she cannot be located, or is incarcerated or deceased.

Child Support Staff Encourage Genetic Testing in Cases in Which Uncertainty Exists.

Forty State child support agencies believe genetic testing should be used when any uncertainty
about paternity exists on the part of any of the parties, and another six go further to say it should
be used in all cases. Only four State officials suggest that substantial uncertainty should exist
before genetic testing is provided. A local child support worker explains that, in practice,
workers encourage genetic testing whenever doubt exists:

        “If there is any doubt, I encourage them to do a blood test. Some guys are
        embarrassed to ask for the test, but I tell them to go ahead unless they are sure.
        Genetic testing does not add much paperwork or staff time to the process. So it is
        better to do it up front.”

Most, But Not All, State Child Support Agencies Have Administrative Authority To Order
Genetic Testing, Thereby Potentially Expediting the Paternity Establishment Process.

Forty-three State child support agencies have authority to order parties in paternity cases to
submit to genetic testing, with a few States granting this authority only within the last two years.
Two other States have a quasi-judicial procedure in which child support agencies may order
testing when approved by judicial authorities. In the six remaining States, only the courts may
order genetic testing.

                                           )))))))))))
                                                3
Federal law requiring States to empower their child support agencies with administrative authority
to order testing is part of a general effort to expedite paternity establishment procedures. Until
recently, paternity establishment was a highly judicial process - with family or juvenile courts
handling such cases in most States. However, because many State judicial systems were
overloaded, paternity cases could often take many months, even after location of the putative
father. A local child support worker explains how court involvement can create significant delays
in the paternity establishment process:

       “He has the right to go to court, and can request a DNA test. He can’t get a
       DNA test until he files an answer with the court, and requests the test. He will
       then go back to court, perhaps several months later, and request the results. It
       usually takes about 6-8 weeks to get the DNA results. So there could be three or
       four months from the first court date. Getting court dates takes more time than
       getting a DNA test result.”

States are using strategies to expedite judicial paternity procedures, such as having phlebotomists
present on days when paternity cases are heard. If one of the parties requests testing, the judge
can order all three parties into an adjacent room to provide DNA samples. Judges may also set a
date for final settlement of the case a few days after the test results are expected.

Another strategy to expedite paternity establishment is to make it predominately an administrative
procedure, requiring little court involvement.7 Empowering State child support agencies with the
authority to order testing is a necessary first step of this approach. In those States that
consciously attempt to make paternity establishment an administrative process handled chiefly by
the child support agency, respondents view genetic testing as quite simple. Once named as a
putative father, a man may either voluntarily acknowledge paternity, voluntarily submit to genetic
testing, or the agency may issue an administrative order for testing. Genetic material samples may
be submitted at the local child support office, or at a nearby location, perhaps on a putative
father’s first visit to the office. The results of testing either exclude the man or create a legally
binding presumption of paternity. Paternity is then established administratively and staff proceed
to obligate the father for support. (See Appendix A for example language of State documents
regarding ordering genetic testing.)

Genetic Testing May Be Used in Cases Where Paternity Has Already Been Established.

Local child support staff we interviewed report that genetic testing is occasionally used in cases in
which paternity has already been established by other methods. Federal law allows that paternity
may be established through voluntary acknowledgment of the mother and putative father. While
the parties may chose to pursue genetic testing prior to voluntary acknowledgment, they are likely
to sign an acknowledgment in the hospital immediately after the child’s birth. Congress clearly
requires that when such a voluntary acknowledgment of paternity is signed, States conclusively
establish paternity, following a 60-day rescission period.8 Beyond the rescission period, a
voluntary paternity acknowledgment may only be challenged based on “fraud, duress or material
mistake of fact.”9



                                          )))))))))))
                                               4
Some child support staff interpret Federal law to mean that child support agencies and courts
should neither order nor pay for genetic testing once paternity has been conclusively established.
They argue that even if the man who acknowledged paternity is not the biological father, he
voluntarily chose to take responsibility, may already have a relationship with the child, and neither
he nor the mother should be allowed to revoke his parentage. They warn that if paternities
established through voluntary acknowledgment are commonly overturned through subsequent
genetic testing, the in-hospital voluntary paternity acknowledgment program may be jeopardized.
Other child support staff argue that if a man incorrectly acknowledges paternity the State has an
obligation to make testing available, even months or years after the acknowledgment. If genetic
testing excludes the man, the State could reverse the paternity establishment and discontinue
collection of child support. They maintain that collection is difficult if the man believes he is not
the father, and that the best interest of the child is served by a definitive ruling based on genetic
testing.

Similar concerns arise regarding the use of genetic testing in cases in which paternity has been
established by default. Federal law allows for paternity to be established through a default order
issued by the child support agency or the courts if a putative father does not heed a summons to
appear for genetic testing or other appointment. Although States are required to provide proper
service, a putative father who fails to respond could have paternity established by default with no
evidence other than the word of the mother.

Some staff express concern over who pays for genetic testing and who has the authority to order
testing in cases in which paternity has previously been established. If child support agencies
routinely pay for these tests, total testing expenses would rise. On the other hand, if the agency
refuses to pay, but allows genetic testing in these cases, some fear that only men with the financial
ability to pay for testing in advance could avail themselves of the service. Similarly, if only courts
may grant testing in such cases, those with greater resources could petition the courts to allow
genetic testing and potentially revoke paternity.

Some have suggested that the circumstances of individual cases may be more critical than
standardized policies. This view draws a distinction between cases in which child support staff
and courts ‘routinely’ ignore voluntary paternity acknowledgments by ordering testing upon
request, and cases in which only special circumstance can warrant paternity testing. For example,
suppose an in-hospital paternity acknowledgment is signed at the time of birth, but the mother
does not apply for public assistance or child support until the child is two years old. If child
support staff will routinely grant a father’s request for genetic testing, the credibility of the
original acknowledgment may be undermined. If, however, the Federal language of “fraud, duress
or material mistake of fact” is demonstrated, unique cases may be handled without discarding the
voluntary acknowledgment structure.




                                          )))))))))))
                                               5
BARRIERS TO THE USE OF GENETIC TESTING

Many Mothers and Putative Fathers Have Incentives Not to Test.

State Child Support agencies and local staff agree that the greatest barrier to the effective use of
genetic testing is a desire on the part of mothers and putative fathers not to establish paternity.
State administrators report that putative fathers (43 States) and mothers (41 States) “do not want
paternity established,” and therefore avoid testing. Local child support office managers in our six
focus States express similar concerns, identifying the desire of mothers (80 percent of offices) and
putative fathers (72 percent) not to establish paternity as a barrier to the use of genetic testing.

Local child support staff explain that the perspective of mothers and putative fathers often
depends on their current relationships. A mother may have a relationship with another man and
fear that paternity and child support activities may disturb that relationship. Additionally, she may
no longer have a relationship with the putative father and not want him involved with her children.
 Conversely, a mother may indeed have a relationship with the putative father, perhaps with him
providing informal financial support to the family. If the mother receives public assistance, much
of the father’s formal financial support would likely go to the State as reimbursement for
assistance rather than as support for the child. A putative father may have similar concerns. He
may not want to be involved with the family, or may already provide informal support and wish to
avoid participation in the formal child support system to maximize the amount of support reaching
his children. Depending on circumstances, putative fathers, like mothers, may have significant
incentives not to submit to genetic testing or to establish paternity.

The effect of these incentives is to increase the chance that one or more parties will not show up
for genetic testing when scheduled. When fathers fail to appear for genetic testing, States either
establish paternity by default immediately (10 States), provide a second opportunity or certain
amount of time for testing before establishing paternity by default (25 States), or refer the case to
court (11 States). Once a case is referred to the courts, judges may establish paternity by default
or re-order genetic testing. Judicial options may also include fining putative fathers, citing them
for contempt, or otherwise attempting to gain their compliance.

Mothers receiving public assistance risk being designated as non-cooperative and may face
sanctions for failure to appear for genetic testing. Sixteen States immediately make this
designation when a client fails to appear, while 32 States allow the mother a second opportunity
or certain amount of time to comply. Most States appear to allow caseworkers some discretion,
depending on the circumstances that caused the missed appointment. One State indicates that
their policy requires child support staff to communicate with a non-compliant mother before
making a determination of non-cooperation.10 If the mother is not receiving public assistance,
States cannot compel her to cooperate and generally begin case closure procedures once she fails
to keep appointments. (See Appendix A for example language of State documents regarding
ramifications of non-compliance.)




                                          )))))))))))
                                               6
While the Cost of Genetic Testing Does Not Inhibit Its Use by Child Support Agencies and
Staff, It May Be Seen as a Significant Barrier by Some Putative Fathers.

The cost of genetically testing all three parties to determine paternity ranges from $130 - $300
across States, with a national average of $204 per case. The Federal government reimburses
States for 90 percent of their paternity testing expenses, although the Administration’s FY 2000
budget proposes reducing the rate of reimbursement to 67 percent.

While almost all States appear to attempt recoupment of testing costs from men determined to be
fathers, 15 States allow local staff and courts discretion in seeking recoupment on a case-by-case
basis. Only one State indicates they do not try to collect reimbursement in any cases.11 Local
staff view cost and recoupment issues from a very practical perspective. As one worker explains,
cost concerns are often viewed as secondary to establishing paternity:

       “Cost is not an issue. We would never discourage someone from taking the test
       because of cost. Just the opposite. When there are any reservations, we would
       tell him it is in his best interest to have the test. We don’t ask for reimbursement,
       even if the test is positive.”

While some local offices may not try to recoup costs, many fathers are charged for testing, and
the cost may constitute a significant barrier for them. Eighteen State agencies report the fees
charged for genetic tests are a barrier to putative fathers’ use of testing. To understand how cost
could discourage use of testing, imagine a situation in which a low-income or unemployed man is
alleged to be the father of a child. Suppose he questions that the child is his, yet knows paternity
is a strong possibility. The effect of recoupment policies is that the man in this scenario must risk
up to $300 to find out whether the child is his. His other options are to wait for a default order of
paternity to be issued or voluntarily acknowledge paternity. In each case, he technically gives up
his right to genetic testing. For many men, the $300 gamble may prevent them from testing and
learning definitively whether they are the father. Since staff freely encourage testing, they may be
waiving the recoupment policy in similar situations. However, unless caseworkers have clear
authority to waive recoupment, some fathers may not test because of the cost.

Two factors determine the cost of genetic testing for individual paternity cases: whether the same
parties have to be re-tested for any reason; and whether multiple men have to be tested before
paternity is established. Re-testing the same parties is occasionally required and occurs when
samples are contaminated or otherwise insufficient for conclusive results. Child support agencies
typically cover the cost of this rare type of re-testing, with no recoupment. Parties in paternity
cases may also wish to re-test because they are dissatisfied with, or doubt, the results of an earlier
test. Typically, if a second test is granted, the party requesting the test must pay the costs in
advance.

Testing of multiple partners may be required to determine paternity. Local staff report that while
most women know who the father is with certainty, some women name two, three, or four men as
possibly the father. Rarely, even more men are named. In most States, paternity workers use
practiced interview skills to help a mother determine the most likely candidate from among the


                                           )))))))))))
                                                7
possibilities. Child support offices typically perform genetic testing in the order of likelihood, and
only test others if the first man is excluded. However, in a focus State that primarily uses a
judicial process for establishing paternity, workers report testing as many as three men at the same
time before making a pleading in court. Because it took so long in this locality to arrange court
dates, it was more prudent for child support attorneys to get permission to test all alleged fathers
at once than it was to go before the judge after each possible exclusion. These workers suggested
that their decisions often involved a trade-off between time and money.

The Time, Location and Method of Sample Collection Present Significant Barriers to Testing.

State and local staff report that getting parties to testing sites is problematic. Lack of
transportation to the testing facility was identified as a barrier to mothers (41 States) and putative
fathers (25 States). Inconvenient testing locations was also identified as a barrier for mothers
(23 States) and putative fathers (16 States). Local office managers in focus States agreed,
identifying transportation as a barrier for mothers (71%) and putative fathers (35%), and
inconvenient locations as a barrier for mothers (26%) and putative fathers (12%).

About forty percent of State agencies also identified client fear of needles as a barrier to the use of
genetic testing for both mothers and putative fathers. Some State administrators indicate a
reluctance to using needles for collecting samples from infants under a certain age. Additionally,
many prisons do not allow phlebotomists to bring in needles for collecting samples from prisoners.

While Genetic Testing Mostly Expedites the Paternity Establishment Process, Staff are
Concerned About Scheduling Delays and Parties Intentionally Using Testing to Delay
Paternity Establishment.

Thirty-nine State child support agencies report that genetic testing sometimes prolongs the
paternity establishment process, yet only seven view these delays as a problem. Similarly, only
eight percent of local child support office managers in focus States view delays attributed to
genetic testing as a problem. Test results are typically returned to local offices two to four weeks
after genetic samples are submitted, but occasionally take longer. Time may be wasted prior to
the test because caseworkers report difficulty in scheduling appointments for parties to submit
samples of genetic material. Finally, mothers and putative fathers often use the genetic testing
process to undermine or stall paternity establishment efforts. Local workers in several offices
reported frustration caused by these delays:

       “He comes in and wants to be drawn. I have to wait two months for a draw date,
       and then it’s going to take six to eight weeks for the results to come back. Well,
       that’s not going to meet our 90 day [goal] right there. I don’t see how it could be
       improved, unless we did it weekly. So that’s a barrier, not having testing as often
       as you’d like.”

       “A lot of [putative fathers] have learned if they ask for a blood test, it’s going to
       prolong it. So a lot of them ask for it even though they know they are the father.
       They’ve just learned to work the system.”


                                           )))))))))))
                                                8
As previously noted, the major reason genetic testing delays paternity establishment is because
parents delay testing. Mothers and putative fathers frequently fail to appear for scheduled testing
appointments. This situation requires re-scheduling or may cause a case to be switched from
administrative to judicial procedures. If only the courts may order testing, or must approve
orders for testing, further delays may ensue. States attempt to overcome these delays by testing
parties, especially putative fathers, the first time they appear at a local child support office or at
court. Many offices arrange appointments with putative fathers and mothers on specific days in
which phlebotomists are scheduled to be in the office or at court.

Cases are also delayed when mothers intentionally name the wrong man as the father. It may take
weeks or months to exclude the first putative father, before workers can get another name and
begin the genetic testing process again. To discourage these intentional delays, one focus State
instituted a policy of designating a mother on public assistance as non-cooperative, and imposing
sanctions, if the first two men she named as father were excluded by genetic testing. This policy
has been challenged in court because it is difficult for caseworkers to determine if mothers are
attempting to defraud the system, or truly do not know which of several men is the father of her
child.

STRATEGIES FOR SURMOUNTING BARRIERS

Some State agencies and local child support offices are using promising strategies to overcome
barriers to the use of genetic testing including, as previously discussed, not charging fathers for
paternity testing. Other promising strategies include: collecting genetic samples without using
needles, and; immediate collection of genetic samples at local child support offices.

While Buccal Swab Sampling Overcomes Barriers Associated With Drawing Blood, Its Use is
Limited and Some Authorities Still Prefer Blood Samples.

Only three States do not yet use buccal swab sampling, a method that uses cells swabbed from the
cheek instead of drawn blood, to obtain genetic material needed in paternity testing. Despite the
widespread acceptance of swab sampling in States, clients may not have access to the method in
some areas. Offices in three of our six focus States have near universal access to swab sampling,
yet access in the other three States is limited with 38 percent of local offices reporting no swab
sampling. There appears to be confusion among some State and local offices regarding the
acceptance of swab sampling. State agency respondents in one focus State indicate buccal swab
sampling is not allowed for paternity testing in their State, yet 13 local child support office
managers (68%) report some use of the method in their areas.

Child support staff suggest three explanations for local variation in access to swab sampling. In
one respect, inconsistent implementation may simply reflect which services are provided by
genetic testing vendors. Many States contract with private companies to collect samples and test
for paternity. If a vendor handling a region of the State only uses drawn blood, parties may not
have other options. A second explanation involves possible resistance to the buccal swab method
by local judicial authorities. Many local child support offices still rely heavily on the court system
and appear to conform testing procedures to the preferences of local judges. Third, child support


                                           )))))))))))
                                                9
office managers in half of our focus States report having local discretion to determine sampling
procedures.

Buccal swab sampling is preferred over drawing blood by 29 State child support agencies and 41
percent of local office managers in the six focus States.12 Swab sampling is preferred primarily
because it is less invasive for all parties, especially children. Swabbing also avoids client fear of
needles, which was identified by about 40 percent of State agencies as a barrier to the use of
genetic testing for both mothers and putative fathers. The method is also viewed as easier, faster
and safer to administer than blood sampling. With no fear of the safety risks associated with
handling blood, a few local managers note that their staff has been trained to perform the simple
swabbing procedure. State administrators also indicate that swab sampling is the most acceptable
method for collecting samples from infants under a certain age. Finally, many prisons do not
allow needles, leaving swabbing as the only method for obtaining samples from prisoners. A local
child support worker describes the typical view of sample collection using swabs, reporting:

       “We do buccal swab here, so I tell the client there are no needles, and no blood,
       and that makes it easier because sometime they have young kids and don’t want to
       get them stuck.”

Eleven State agencies and 23 percent of local child support managers in focus States prefer drawn
blood sampling. The primary reason given for preferring blood to swabs is a misconception that it
provides scientifically more reliable results. Phlebotomists explain, however, that the DNA is the
same in every cell of the body and the accuracy of testing performed on cheek cells collected with
a swab is the same as using blood.13 Another reason for preferring blood samples is that, if
performed improperly, swabbing may not collect enough cells for paternity testing and may
require re-sampling. Some child support staff indicate that blood samples have stronger standing
in court proceedings. One worker suggests that blood sampling is less vulnerable to fraud and
another believes it “motivates some putative fathers to sign the [voluntary acknowledgment],”
because they do not want to face the needle.

Collection of Genetic Samples in Local Child Support Offices Surmounts Barriers That Delay
Paternity Establishment, But This Service is Not Offered in Most Areas.

Some States are attempting immediate collection of genetic samples, on-site, at local child
support offices or in court. Parties may submit samples of genetic material at local child support
offices in 29 States. However, implementation is rarely Statewide and often only a fraction of
local offices offer this service. Fourteen of these States do report that all or nearly all of their
local child support offices are equipped to draw blood or perform swab sampling. However, 12
States report that only a few offices have sampling equipment and 20 States report that none of
their local offices are equipped for sample collection.




                                          )))))))))))
                                               10
Local child support staff indicate that having sample collection in their offices or at a nearby
location, so that parties may submit samples the same day, is of critical importance. Two workers
contrast immediate sample collection with delayed submission of genetic material:

       “Some counties have genetic testing on site. We are doing it here, since we
       already have the alleged father here. That way the man doesn’t have the option
       of not showing up later. [This makes our method] the same as the court option.
       They take samples at court.”

       “It happens very often that they come in today and just sign saying they are going
       to take the genetic test, and then the genetic test date comes and they don’t show
       up, so it’s delayed again. Most of them won’t show up for that [later] paternity
       test.”

When genetic samples are not submitted at local child support offices, staff typically send parties
to locations arranged by contracted private vendors or to local hospitals, clinics and doctors’
offices. Parties may submit samples at court in several States, and three States report taking
samples at local public assistance offices.




                                          )))))))))))
                                               11
                      RECOMMENDATIONS

OCSE Should Encourage All States to Fully Comply With Welfare Reform Legislation by
Giving Their Child Support Agencies Administrative Authority to Order Genetic Testing.

Welfare reform legislation requires States to empower their child support agencies with
administrative authority to order genetic testing. Child support agencies in eight States report
their legislatures had not granted them this authority two years after welfare reform took effect.
Having authority to order testing is a necessary first step for child support workers to
administratively establish paternity, thereby avoiding significant delays in some judicial systems.
OCSE should encourage the remaining States to give their child support agencies this important
tool to increase the effectiveness of their paternity establishment efforts.

OCSE Should Encourage the Use of Innovative Testing Strategies, Including Buccal Swab
Sampling and Collection of Genetic Material at Local Child Support Offices.

Sample collection at local child support offices and use of buccal swab sampling help child
support workers surmount barriers to the use of genetic testing. Staff report that collecting
genetic samples from parties at the child support office helps avoid delays and transportation
problems. Buccal swab sampling appears to be safer, easier and faster than drawing blood, and
often meets less resistance from parties who may be afraid of needles.

OCSE Should Encourage States to Exercise Care in Allowing Genetic Testing in Cases in
Which Paternity Has Already Been Established.

Routine use of genetic testing in cases in which paternity has already been legally established
through voluntary acknowledgment or by default may have serious long-term consequences.
Such practice could weaken the legal standing of acknowledged or defaulted paternities. Some
question the usefulness of devoting State resources to a task that could reverse a legitimate
paternity establishment. Others argue, however, that the State has a vital interest in knowing the
biological truth of paternity. State child support agencies should be encouraged to work with
their legislatures, vital records agencies and court systems to develop consistent procedures
regarding use of genetic testing when paternity has already been established.

AGENCY COMMENTS

The Administration for Children and Families (ACF) agreed with our recommendation that all
States should grant their child support enforcement agency administrative authority to order
genetic testing. They requested that we provide the names of States who reported they were not
fully compliant with this welfare reform provision at the time of our inspection so they could
pursue the necessary steps to obtain compliance, which we will do.

ACF concurred with our recommendation that they encourage States to use innovative genetic
testing strategies and will promote good ideas through their OCSE Newsletter and Internet site.


                                          )))))))))))
                                               12
Regarding our recommendation that they encourage States to exercise care in genetic testing
when paternity has already been established administratively, ACF prefers to leave this to State
discretion. Nevertheless, they agreed to advise States that our findings suggest the need for
States to review their own policies and practices for consistency and appropriateness.

We have withdrawn a final recommendation that OCSE encourage States to review whether their
recoupment policies are counterproductive to their paternity establishment objectives. ACF
prefers to let States decide whether to recoup genetic testing costs in view of the mixed opinion
and absence of effectiveness data on this matter. We note that State reviews of whether their
recoupment practices are counterproductive might yield insightful effectiveness data and need not
remove this policy from State control.

ACF’s comments are provided in their entirety in Appendix B.




                                         )))))))))))
                                              13
                                     ENDNOTES

1. Social Security Act, Title IV, Part D. Sec. 455 (C).

2. Social Security Act, Title IV, Part D. Sec. 466(c)(1).

3. Social Security Act, Title IV, Part D. Sec. 466 (a)(5)(B)(ii).

4. These State and local offices were not randomly selected and their responses should not be
interpreted as representative of all local offices in the nation or even within their own State.

5. We surveyed all local offices in Illinois, New Jersey and Virginia, and approximately a third of
local offices in California, Georgia and Texas.

6. By identifying the child’s genetic characteristics inherited from the mother, testing can more
accurately demonstrate that all other genetic traits derive from the man.

7. Our forthcoming report, Paternity Establishment: Administrative and Judicial Methods (OEI
06-98-00050) will provide a detailed analysis of judicial and administrative methods of paternity
establishment.

8. States may establish paternity earlier if an administrative or judicial order for child support is
issued before the 60 days has passed.

9. Social Security Act, Title IV, Part D. Sec. 466 (a)(5)(D)(iv).

10. Our forthcoming report, Client Cooperation With Child Support Enforcement: State Policies
and Practices (OEI 06-98-00040) will provide a detailed analysis of why some public assistance
clients avoid cooperation with child support enforcement and the effects of non-cooperation.

11. One State reports charging mothers for testing if the putative father is excluded.

12. Nine State agencies and 29 percent of local office managers indicate no preference.

13. Similarly, other sources of genetic material are also adequate for paternity testing, including
umbilical cord tissue samples, semen and post-mortem specimens.




                                           )))))))))))
                                                14
                                  APPENDIX A

        Examples of Language Used in State Genetic Testing Documents

Voluntary Agreements

C	     I, [name,] am voluntarily agreeing to submit to blood testing of either proving or
       disproving that I am the biological father of [children.] I understand that if the results of
       this blood testing show that the probability of my being the father is at least 98%, I will ...
       be declared the legal father of the above named child and therefore responsible for the
       payment of child support and the provision of medical support, if available at reasonable
       cost, until that child reaches the age of 18 years or beyond if required by law to support
       beyond age 18. Also, I understand that if I am found to be the father of the above named
       child, I will be responsible for the cost of the blood testing.

C	     By virtue of [her/his] notarized signature on this document: [mother/alleged father] agrees
       to be bound by the results of genetic testing conducted by a certified laboratory regarding
       the paternity of the child indicated below.

Administrative Orders for Genetic Testing

C	     Whereas, [State law] allows the Department of Social Services to enter administrative
       orders for genetic testing for purposes of paternity actions ... [the parties] shall submit to
       genetic testing in this matter. You are further notified that you are legally required to
       comply with this Administrative Order for Genetic Testing and your intentional failure to
       do so is a petty offense under the laws of the [State.]

C	     This is an order for you to submit to paternity testing. We issue a standing order for
       paternity testing when the identity of the biological father is disputed. When paternity is
       questioned, the Child Support Enforcement Division will schedule appointments for
       genetic testing for the alleged father, the mother and the child. State law is clear: the
       alleged father, the mother and the child must submit to paternity tests, when scheduled. If
       you do not comply with this order, you may be subject to legal sanctions, including a
       legally-binding determination of paternity. We reserve the right to recover genetic testing
       costs.

Judicial Orders for Genetic Testing

C	     The Department of Human Services has been appointed in the above-referenced court
       order as the agency responsible for arranging genetic testing. The genetic test for all
       parties has been scheduled as follows: [time, date and location]. ... If you are unable to
       have the genetic test performed at the scheduled time, please contact [us] immediately.
       Failure to appear could result in a recommendation for a court hearing to resolve the
       matter.


                                          )))))))))))
                                              A-1
C	     If you are court ordered to appear for a blood test, and fail to do so at the scheduled time
       and place, contempt of court proceedings may be commenced against you for violating the
       court order.

C	     The alleged biological father, the alleged biological mother, and the child named above
       present themselves at [date, time, and location.] The parties are to conduct themselves in a
       proper manner while at the site. The willful failure of any of the parties to present and
       conduct themselves as ordered may result in the punishment of such parties by a jail
       sentence or by a fine or by both. Further, the court may order such parties to reimburse
       the payor for any costs assessed against it for their failure to appear as scheduled or to
       behave.

Letters to Mothers Regarding Genetic Testing

C	     Please be advised that blood testing for you and the above named children, has been
       scheduled on [time, date and location]. You must keep this appointment to cooperate with
       the child support program. If you receive State assistance, your benefits may be reduced if
       you do not cooperate with the child support program.

C      Failure to appear can result in court action or the reduction of the [assistance] grant.

Letters to Alleged Fathers Regarding Genetic Testing

C	     If you deny or are unsure that you are the father, you must submit to genetic testing. This
       testing will show whether it is possible that you are the father of the child. If the test
       results show a 95% or greater chance that you are the biological father, you will be subject
       to all laws that impose duties upon a legal father. You will then have to reimburse us for
       the cost of testing.

C	     You have been scheduled for genetic testing [time, date and location.] If you fail to
       appear for your genetic test, an order based on the Notice of Agency Action will be issued
       declaring you as the father and ordering you to pay child support.

Payment for Genetic Testing

C	     The Department of Economic Security agrees to advance all costs necessary to complete
       genetic testing of the following individuals: [names of parties.] In the event that genetic
       testing does not exclude [alleged father] as the biological father of the minor children, he
       agrees to reimburse the Department of Economic Security for all genetic testing costs.

C	     If the alleged biological father is found to be the biological father, then he may be required
       to reimburse the payor for all costs incurred in obtaining and testing the blood samples.
       However, final assessment of such costs shall be made at the end of the case.




                                          )))))))))))
                                              A-2
